   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




May 20, 2011

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children & Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Head Start Recipient Capability Audit of Pinellas Opportunity Council, Inc.
               (A-04-09-07005)


Attached, for your information, is an advance copy of our final report on our limited scope
review of Pinellas Opportunity Council, Inc.’s (POC) capacity to manage and account for
Federal funds and to operate its Head Start program in accordance with Federal regulations. We
will issue this report to POC within 5 business days. This review was requested by the
Administration for Children and Families, Office of Head Start, as part of its overall assessment
of Head Start grantees that have applied for additional funding under the Recovery Act.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov, or contact Peter Barbera,
Regional Inspector General for Audit Services, Region IV, at (404) 562-7750 or through email at
Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-07005.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303



May 24, 2011

Report Number: A-04-09-07005

Mr. Fred W. Zecker
Executive Director
Pinellas Opportunity Council, Inc.
3443 1st Avenue North
St. Petersburg, FL 33713

Dear Mr. Zecker:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Head Start Recipient Capability Audit of Pinellas
Opportunity Council, Inc. We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise Novak, Audit Manager, at (305) 536-5309, extension 10, or through email at
Denise.Novak@oig.hhs.gov. Please refer to report number A-04-09-07005 in all
correspondence.


                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Fred Zecker


Direct Reply to HHS Action Official:

Ms. Carlis V. Williams
Regional Administrator, Region IV
Administration for Children and Families
U.S. Department of Health & Human Services
61 Forsyth Street, Suite 4M60
Atlanta, GA 30303-8909
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




HEAD START RECIPIENT CAPABILITY
 AUDIT OF PINELLAS OPPORTUNITY
          COUNCIL, INC.




                        Daniel R. Levinson
                         Inspector General

                            May 2011
                          A-04-09-07005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to P.L. No. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private non-profit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

Pinellas Opportunity Council, Inc. (POC), a non-profit agency, operates community action
programs with the cooperation and assistance of governmental and private agencies. POC has
entered into a delegate agency agreement with Head Start Child Development and Family
Services, Inc., doing business as Pinellas County Head Start (PCHS), to operate a Head Start
program at locations throughout Pinellas County, Florida. PCHS performs center- and home-
based services that are housed in 22 directly operated and community-partnered centers
throughout its service area. POC is funded primarily through Federal and local government
grants. During the period January 1, 2008, through March 31, 2009, ACF directly provided grant
funds to POC totaling $14,741,851. POC agreed to forward the funds to PCHS as needed and
not to exceed the amount of the grant.

POC received Recovery Act grant funding for the period July 2009 through September 2010,
totaling $802,425 for cost-of-living increases and quality improvement.

OBJECTIVE

The objective of our limited scope review was to determine whether POC is financially viable
and has the capacity to manage and account for Federal funds and to operate its Head Start
program in accordance with Federal regulations.

SUMMARY OF FINDINGS

Generally, POC is financially viable. However, we identified certain issues concerning its
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations. The issues identified pertain to: loans to related parties
and improper use of Head Start funds, direct versus indirect costs, personal expenses, and



                                                 i
conflicts of interest and family favoritism. These issues occurred because POC did not always
ensure, through monitoring and oversight, that PCHS applied Federal regulations in the operation
of its Head Start program.

RECOMMENDATION

In determining whether POC should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
POC’s capacity to manage and account for Federal funds.

PINELLAS OPPORTUNITY COUNCIL, INC. COMMENTS

In written comments on our draft report, POC concurred with most of our findings and included
corrective actions it had taken regarding those findings. However, POC disagreed with some
aspects of our finding regarding conflicts of interest because it disagrees that all of the issues we
reported are matters that effect POC and the Head Start program. POC stated that its monitoring
or oversight responsibilities over PCHS were limited to the Head Start program. It does not
believe that it is responsible for other grants or activities administered by PCHS that do not come
directly through POC, such as the Healthy Marriages Grant and Friend of Families Foundation
operations.

In addition, POC provided further information in its response regarding the safety of children.

POC’s comments are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that, generally, a Head Start grantee would not be responsible for the delegate’s misuse
of funding beyond the Head Start funds. However, our broader conflict of interest findings fall
within POC’s jurisdiction for several reasons. First, PCHS regularly provided loans of Head
Start funds to Friend of Families Foundation, Inc.(FOFF), and these funds fall squarely within
POC’s oversight responsibilities. Second, PCHS allocated a disproportionate amount of Head
Start funds to shared indirect costs such as Information Technology services. In short, the
intermingling of money, staff, and resources, coupled with the complicated grantee/subgrantee
relationship between PCHS and FOFF, promoted at least the appearance of conflicts of interest
and family favoritism, as detailed in our report. We believe further review by ACF is warranted.

We likewise maintain that, because the Executive Director of PCHS was also the President of the
Florida Head Start Association, payments by PCHS to the Florida Head Start Association also
promote the appearance of a conflict of interest that merits further review by ACF.

After reviewing POC’s comments, we deleted the finding regarding safety of children.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                                    Page

INTRODUCTION ................................................................................................................. 1

          BACKGROUND ............................................................................................................ 1
              Head Start Program ............................................................................................. 1
              Pinellas Opportunity Council, Inc. and Pinellas County Head Start .................. 1
              Federal Requirements ......................................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................. 2
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATION.............................................................................. 3

          FINANCIAL MANAGEMENT ..................................................................................... 3
               Loans to Related Parties and Improper Use of Head Start Funds....................... 3
               Direct Versus Indirect Costs ............................................................................... 4
               Personal Expenses ............................................................................................... 6
               Conflicts of Interest and Family Favoritism ....................................................... 7

          INSUFFICIENT GRANTEE MONITORING ............................................................... 8

          RECOMMENDATION .................................................................................................. 8

          PINELLAS OPPORTUNITY COUNCIL, INC. COMMENTS .................................... 8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 9

APPENDIX

          PINELLAS OPPORTUNITY COUNCIL, INC. COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to P.L. No. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

Pinellas Opportunity Council, Inc. and Pinellas County Head Start

Pinellas Opportunity Council, Inc. (POC), a non-profit agency, operates community action
programs with the cooperation and assistance of governmental and private agencies. POC has
entered into a delegate agency agreement with Head Start Child Development and Family
Services, Inc., doing business as Pinellas County Head Start (PCHS), to operate a Head Start
program at locations throughout Pinellas County, Florida. PCHS performs center- and home-
based services that are housed in 22 directly operated and community partnered centers
throughout its service area.

In addition to operating the Head Start program, PCHS administers the Child Care and Adult
Food Programs and is the grantee for the Healthy Marriages grant operated by Friend of Families
Foundation, a related party organization.

POC is funded primarily through Federal and local government grants. During the period
January 1, 2008, through March 31, 2009, ACF provided $14,741,851 in grant funds directly to
POC. POC agreed to forward the funds to PCHS as needed and not to exceed the amount of the
grant. POC received Recovery Act grant funding for the period July 2009 through September



                                                 1
2010 totaling $802,425 for cost-of-living increases and quality improvement. As the grant
recipient, POC retains oversight responsibility for Federal Head Start dollars. In its oversight
role, POC conducts quarterly reviews of budgetary items and annual onsite monitoring visits at
PCHS to address financial, administrative, and programmatic areas.

Federal Requirements

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and follow financial systems that accurately and completely report the financial results of each
HHS-sponsored project or program. Grantees are also required to compare outlays with budget
amounts for each award and may use grant funds only for authorized purposes. Further, pursuant
to 45 CFR § 1301.30, grantees are required to conduct the Head Start program in an effective
and efficient manner, free of political bias or family favoritism.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to determine whether POC is financially viable
and has the capacity to manage and account for Federal funds and to operate its Head Start
program in accordance with Federal regulations.

Scope

We performed this limited scope review based on a June 22, 2009, request from ACF. We did
not perform an overall assessment of POC’s internal control structure. Rather, we reviewed only
the internal controls that pertained directly to our objectives. Our review focused on fiscal years
(FYs) 2007, 2008, and a portion of 2009.

We performed our fieldwork at POC’s and PCHS’s administrative offices in St. Petersburg and
Largo, Florida.

Methodology

To accomplish our objective, we reviewed: (1) relevant Federal laws, regulations, and guidance
and (2) POC’s and PCHS’s:

       •   audited financial statements for FYs 2007 and 2008; 1




1
    PCHS’s financial statement for 2008 was an unofficial draft.



                                                           2
       •   drawdown process 2 and delegate monitoring; 3

       •   financial position, including performing ratio analysis of financial information;

       •   organizational structure and duties, including that of the Board;

       •   policies and procedures that address the reporting requirements and terms and conditions
           of the grant award;

       •   financial systems established to account for Head Start program funding; and

       •   procurement practices.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                  FINDINGS AND RECOMMENDATION

Generally, POC is financially viable. However, we identified certain issues concerning its
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations. The issues identified pertain to: loans to related parties
and improper use of Head Start funds, direct versus indirect costs, personal expenses, and
conflicts of interest and family favoritism. These issues occurred because POC did not always
ensure, through monitoring and oversight, that PCHS applied Federal regulations in the operation
of its Head Start program.

FINANCIAL MANAGEMENT

Loans to Related Parties and Improper Use of Head Start Funds

Federal regulations (2 CFR § 230, App A, A.2.a.) state, “To be allowable under an award, costs
must meet the following general criteria: Be reasonable for the performance of the award and be
allocable thereto under these principles.” In addition, Federal regulations (45 CFR §
74.22(b)(2)) state:

           Unless inconsistent with statutory program purposes, cash advances to a recipient
           organization shall be limited to the minimum amounts needed and be timed to be
           in accordance with the actual, immediate cash requirements of the recipient

2
    The drawdown process, as defined by ACF, is the action by which the grantee accesses Federal funds granted to it.
3
  POC entered into an agency delegate agreement with PCHS in which PCHS (the delegate) is contracted to
implement and conduct all programmatic and fiscal activities required by the grant. POC (the grantee) in turn is
required to monitor and evaluate the performance of the delegate.


                                                           3
        organization in carrying out the purpose of the approved program or project. The
        timing and amount of cash advances shall be as close as is administratively
        feasible to the actual disbursements by the recipient organization for direct
        program or project costs and the proportionate share of any allowable indirect
        costs.

POC’s financial management system allowed PCHS to make temporary non-Head Start loans to
related parties and to use Head Start funds to pay non-Head Start costs.

PCHS temporarily used Head Start money to purchase $159,941 in non-Head Start goods and
services between January 2008 and June 2009 for three related parties: Friend of Families
Foundation, Inc. (FOFF), Florida Head Start Association, Inc., and Region IV Head Start
Association. A limited review of the accounts receivable ledger indicated that PCHS usually
refunded the amounts within approximately 1 month.

POC did not verify that PCHS’s drawdown requests for $159,941 represented actual and
immediate cash requirements to carry out the Head Start program. This lack of oversight
occurred because POC did not adequately monitor the drawdown process to ensure that PCHS
was using Head Start funds appropriately. Instead, PCHS initially requested funds from POC in
lump-sum amounts. Only after POC disbursed the funds to PCHS did PCHS provide a check
register to POC as support for the funds requested. POC typically performed a cursory review of
the register, scrutinizing only line items that appeared different from previous submissions. As a
result, PCHS used Head Start funds to cover non-Head Start costs.

Direct Versus Indirect Costs

Federal regulations (2 CFR § 230, App A, B.1.) state, “Direct costs are those that can be
identified specifically with a particular final cost objective, i.e., a particular award.” In addition,
Federal regulations (2 CFR § 230, App A, C.2.) state, “…typical examples of indirect cost for
many non-profit organizations may include depreciation or use allowances on buildings and
equipment, the costs of operating and maintaining facilities, and general administration and
general expenses, such as the salaries and expenses of executive officers, personnel
administration, and accounting.”

Furthermore, Federal regulations (45 CFR §§ 1301.32(a)(1) – (g)(5)) state:

        Allowable costs for developing and administering a Head Start program may not
        exceed 15 percent of the total approved costs of the program, unless the
        responsible HHS official grants a waiver approving a higher percentage for a
        specific period of time not to exceed twelve months ((a)(1)).

        Costs classified as development and administrative costs are those costs related to
        the overall management of the program. These costs can be in both the personnel
        and non-personnel categories ((b)(1)).




                                                   4
       Grantees must charge the costs of organization-wide management functions as
       development and administrative costs. These functions include planning,
       coordination and direction; budgeting, accounting, and auditing; and management
       of purchasing, property, payroll and personnel ((b)(2)).

       Development and administrative costs include, but are not limited to, the salaries
       of the executive director, personnel officer, fiscal officer/bookkeeper, purchasing
       officer, pay-roll/insurance/property clerk, janitor for administrative office space,
       and costs associated with volunteers carrying out administrative functions
       ((b)(3)).

       Other development and administrative costs include expenses related to
       administrative staff functions such as the costs allocated to fringe benefits, travel,
       per diem, transportation and training ((b)(4)).

       Development and administrative costs include expenses related to bookkeeping
       and payroll services, audits, and bonding; and, to the extent they support
       development and administrative functions and activities, the costs of insurance,
       supplies, copy machines, postage, and utilities, and occupying, operating and
       maintaining space ((b)(5)).

       If a waiver requested as a part of a grant application for funding or refunding is
       not approved, no Financial Assistance Award will be awarded to the Head Start
       program until the grantee resubmits a revised budget that complies with the 15
       percent limitation ((g)(5)).

In FYs 2007 and 2008, PCHS did not consistently follow its cost allocation plan. As a result,
PCHS overstated the amount charged to the Head Start program and understated development
and administration costs that are limited to 15 percent of the total approved costs of the program.
Due to limited testing performed during this review, we were unable to determine whether they
exceeded the 15 percent ceiling.

The following are some examples of charging indirect costs as direct costs:

Information Technology Services Contract

PCHS charged its information technology (IT) services contract, totaling approximately
$259,000 for 1 year, as direct costs (program services) rather than charging an allocated portion
as indirect costs (development and administrative expenses). The IT services benefitted the
accounting functions, payroll functions, administrative office, and management functions of
PCHS and other programs administered by PCHS. The IT services company determined that
approximately 7 percent of IT services were required for administrative support for the programs
administered by PCHS. Therefore, at least $18,389 (7.1 percent) of the total IT services contract
amount should have been allocated to development and administrative expenses. Furthermore,
because PCHS and FOFF share various personnel, IT equipment, support, and services, PCHS
should have allocated a percentage of the $259,000 to FOFF.



                                                 5
Travel and Registration Expenses Associated with Training

PCHS employees whose duties included administrative functions made seven trips for training
purposes between January and October 2008. Their travel and registration fees for these trips
totaled $32,285; however, only $581 of the total expenses was charged to development and
administrative expenses (an indirect cost account) and $31,704 was charged to program services
(a direct cost account). Therefore, PCHS overstated the amount charged to the Head Start
program by classifying the $31,704 as a direct cost instead of as an indirect cost.

As an example of some of the trips taken, seven PCHS employees, who performed
administrative functions, and a Board Member attended two training events in Las Vegas,
Nevada, entitled Building Head Start Monitoring Success and The 9th Annual Grant-Funded
Programs Management Conference. The registration, lodging, transportation, and incidental
costs for these administrative personnel and the Board Member to attend these events totaled
$13,569. 4

During the management conference, PCHS staff also charged a dinner for nine people totaling
$616 to Head Start program services. Six of the nine people who attended the dinner perform
administrative functions at PCHS, but PCHS did not charge any costs to development and
administrative expenses. Therefore, the amount PCHS charged to program services for the
dinner attended by six administrative personnel, was overstated by $411.

Other Development and Administrative Expenses

PCHS purchased five computers totaling $10,245 for the use of administrative personnel.
However, PCHS charged this purchase and related installation costs to program costs rather than
to development and administrative expenses.

Personal Expenses

Federal regulations state:

           Costs of goods or services for personal use of the organization’s employees are
           unallowable regardless of whether the cost is reported as taxable income to the
           employees (2 CFR § 230, App B, 19.).

           That portion of the cost of organization-furnished automobiles that relates to
           personal use by employees (including transportation to and from work) is
           unallowable as fringe benefit or indirect costs regardless of whether the cost is
           reported as taxable income to the employees. These costs are allowable as direct
           costs to sponsored award when necessary for the performance of the sponsored
           award and approved by awarding agencies (2 CFR § 230, App B, 8.h.).



4
    This amount is part of the $32,285 overstatement cited in the preceding paragraph.


                                                           6
Furthermore, PCHS’s fiscal manual states, “...only costs that are reasonable, allowable and
allocable to a Federal award will be charged to that award directly or indirectly.”

PCHS charged unallowable personal expenses to the Head Start program. For example, benefits
for eight PCHS employees included vehicles for traveling to and from work. PCHS incurred the
expenses for fuel and oil, depreciation, insurance, lease payments, maintenance, licenses, and
registration for all eight of these vehicles. PCHS did not adjust for the portion of the vehicle
costs that related to unallowable personal use by employees. We were not able to determine the
unallowable amount because PCHS did not have documentation, e.g., mileage logs, to
substantiate personal versus business use. This use of Head Start funds to pay personal expenses
occurred because POC did not provide adequate oversight and monitoring to ensure that PCHS
was using Head Start funds for program related costs.

Conflicts of Interest and Family Favoritism

Federal regulations (45 CFR § 74.42) state:

           No employee, officer, or agent shall participate in the selection, award, or administration
           of a contract supported by Federal funds if a real or apparent conflict of interest would be
           involved. Such a conflict would arise when the employee, officer, or agent, or any
           member of his or her immediate family, his or her partner, or an organization which
           employs or is about to employ any of the parties indicated herein, has a financial or other
           interest in the firm selected for an award. The officers, employees, and agents of the
           recipient shall neither solicit nor accept gratuities, favors, or anything of monetary value
           from contractors, or parties to sub agreements.

Federal regulations (45 CFR § 1301.30) also state, “Head Start agencies and delegate
agencies shall conduct the Head Start program in an effective and efficient manner, free
of political bias or family favoritism.”

Conflicts of Interest

A review of the listing of PCHS’s Board members, bank signature cards, and accounting records
indicated that a Board Member of PCHS, who serves as the Treasurer for the Board, is also a
paid consultant for FOFF. 5 This poses an apparent conflict of interest because the Treasurer has
check cosigning capabilities and also receives monies from FOFF, a related party organization,
as a paid consultant.

A review of PCHS’s accounting records and contracts, and discussions with PCHS personnel,
indicated that the Executive Director of PCHS is also the Executive Director of FOFF and, in
that role, entered into a contract with her daughter to provide consulting services for FOFF.
FOFF paid the Executive Director’s daughter’s consulting company a total of $28,258.
However, a PCHS finance department employee provided documentation of the payments and
commented that because of an apparent conflict of interest between FOFF and the Executive

5
    PCHS is the grantee for the Healthy Marriages Initiative Grant operated by FOFF.



                                                          7
Director’s daughter, Region IV Head Start Association subsequently became the payer to the
daughter’s company through part of April 2009. Then, according to the same employee, because
of a disagreement over contractual payment amounts between Region IV Head Start Association
and the Executive Director’s daughter, payment was then resumed by FOFF even though it was
previously deemed a conflict of interest by the PCHS and FOFF 6 finance departments. The
Executive Director of PCHS is also a board member of the Region IV Head Start Association.

In addition, the Executive Director of PCHS and FOFF is also the president of the Florida Head
Start Association, Inc. A review of PCHS’s employee training list and additional information
provided by PCHS employees indicated that PCHS paid the Florida Head Start Association, Inc.
to provide training for some of PCHS’s employees. PCHS paid $10,725 to the Florida Head
Start Association, Inc. for two training sessions during 2008. Because the Executive Director of
PCHS and FOFF and the president of the Florida Head Start Association, Inc. is the same person,
any transactions between these three organizations pose an apparent conflict of interest.

Family Favoritism

PCHS personnel commented during several meetings that FOFF contracted with the husband of
the PCHS Deputy Director for Program Services to provide service for the Male Involvement
program for FOFF and paid him $3,960 from January 1, 2009, through June 30, 2009. He is also
a contracted employee associated with the Male Involvement program for PCHS; therefore,
PCHS is not free of family favoritism.

All of these instances occurred because POC did not always understand and enforce Federal
regulations or properly oversee and monitor PCHS’s organizational structure.

INSUFFICIENT GRANTEE MONITORING

POC did not always ensure that PCHS applied or enforced Federal regulations because, in its
role as the grantee, POC did not properly oversee or monitor PCHS in its role as the delegate.
Although POC transferred Federal funds to PCHS, it retained its Head Start oversight
responsibilities and is, therefore, responsible for all of the issues delineated above.

RECOMMENDATION

In determining whether POC should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
POC’s capacity to manage and account for Federal funds.

PINELLAS OPPORTUNITY COUNCIL, INC. COMMENTS

In written comments on our draft report, POC concurred with most of our findings and included
corrective actions it had taken regarding those findings. However, POC disagreed with some
aspects of our finding regarding conflicts of interest because it disagrees that all of the issues we
reported are matters that effect POC and the Head Start program. POC stated that its monitoring
6
    PCHS and FOFF share finance personnel.


                                                  8
or oversight responsibilities over PCHS were limited to the Head Start program. It does not
believe that it is responsible for other grants or activities administered by PCHS that do not come
directly through POC, such as the Healthy Marriages Grant and Friend of Families Foundation
operations.

In addition, POC provided further information in its response regarding the safety of children.

POC’s comments are included as the Appendix.


OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that, generally, a Head Start grantee would not be responsible for the delegate’s misuse
of funding beyond the Head Start funds. However, our broader conflict of interest findings fall
within POC’s jurisdiction for several reasons. First, PCHS regularly provided loans of Head
Start funds to FOFF, and these funds fall squarely within POC’s oversight responsibilities.
Second, PCHS allocated a disproportionate amount of Head Start funds to shared indirect costs
such as Information Technology services. In short, the intermingling of money, staff, and
resources, coupled with the complicated grantee/subgrantee relationship between PCHS and
FOFF, promoted at least the appearance of conflicts of interest and family favoritism, as detailed
in our report. We believe further review by ACF is warranted.

We likewise maintain that, because the Executive Director of PCHS was also the President of the
Florida Head Start Association, payments by PCHS to the Florida Head Start Association also
promote the appearance of a conflict of interest that merits further review by ACF.

After reviewing POC’s comments, we deleted the finding regarding safety of children.




                                                9
APPENDIX
                    APPENDIX: PINELLAS OPPORTUNITY COUNCIL, INC. COMMENTS Page 1 of 6
                                      PINELLAS OPPORTUNITY COUNCIL, INC.
         3443 FIRST AVENUE NORTH, ST. PETERSBURG, FLORIDA 33713-8450
                P. O. BOX 11088, ST. PETERSBURG, FLORIDA 33733-1088
                           Fred W. Zecker, ,E xecutive Director
TELEPHONE (727) 327-8690                                             FAX (727) 321 -9612
                 7~ ~~ Actiole A~ SfJU.JUt9 Puw1/a4 ~, 7tMida S~ 196% - - - - - -­




                  April 8, 2011

                  Report Number: A-04-09-07005

                  Peter J. Barbera 

                  Regional Inspector Genera! for Audit Services 

                  Department of Health and Human Services 

                  Office of Inspector General 

                  Office of Audit Services, Region IV 

                  61 Forsyth Street, SW, Suite 3T41 

                  Atlanta, GA 30303 


                  Dear Mr. Barbera:

                  Enclosed are our comments in response to the observations and recommendations in your
                  draft report dated March 31, 2011 which resulted from your visit to our agency in July
                  2009.

                  If you require additional response please advise.

                   Sincerely,




                  Fred W. Zecker 

                  Executi ve Director 





_______________________________________________________________________                                                                               I.
                                                                                                                                                     ~~cDmmum~




POC is a charitable organization in accordance with section 501(c) (3) of the Internal Revenue Code. One hundred percent of contributions received
are used to support programs operated by POCo POC is registered with the Florida Department of Agriculture & Consumer Services. A COPY OF
                                                                                                                                                     V ~ction~
                                                                                                                                                     PAR T N E R S HIP 

PARTNERSHIP THE OFFICIAL REGISTRATION AND FINANCIAL INFORl'vIATION MAY BE OBTAINED FROM THE DIVISION OF CONSUMER.                                    Helping People. Changing Lives. 

SERVICES       BY CALLING TOLL-FREE WITHIN THE                        STATE        1-800-435-7352.   REGISTRATION DOES             NOT IMPLY 

ENDORSEMENT, APPROV AL. OR RECOMMENDA TION BY THE ST ATE. REGISTRATION NUMBER: CH 2732. 

                                                                                  Page 2 of 6

                                                       Report Number: A-04-09-0700S


Financial Management

Loans to Related Parties and Improper Use ofHead Start Funds

POC concurs with the findings as they relate to loans to related parties and improper use
of Head Start funds. It should be noted that transactions of this nature were a customary
practice of the past PCHS senior management staff for many years and such practices
were conveyed to new senior management staff as agency turnover occurred. In
reviewing the history of PCHS external audit examinations by various external regulatory
entities, there was no indication that such practices were ever deemed non-compliant and
therefore, such practices continued.

However, as a result of infonnation shared with PCHS during the OIG review and POC
and PCHS' current management staff receiving additional training related to various
regulations governing the Head Start Program, appropriate measures have been made to
revise the internal procedures related to the request for drawdown of and use of federal
funds.

Corrective Action Taken: POC as of July 2009, required that PCHS follow the steps
outlined below prior to making an official written federal funds drawdown request to
POC to ensure that drawdown requests represent actual and immediate cash requirements
to carry out the Head Start program only, thereby preventing even temporary use of Head
Start funds to pay non-Head Start costs (i.e. related party transactions):

   1. 	 PCHS AlP specialist must fax a copy of the accounts payables voucher batch to
        the POC fmance office. This report outlines the vendor to be paid, cost center to
        be charged, a brief description of the nature of the charge, and the payment
        amount for each expense. This report also includes a breakdown of funds that are
        allowable under the HS grant which will be requested in the drawdown request
        and those that are non-allowable which will be paid from non-federal unrestricted
        funds. POC reviews the report for accuracy and makes inquiries as necessary to
        ensure that the breakdown as presented is correct prior to approving the batch.
        Once POC approves the batch the top page of the batch is initialed by the POC
        finance office and faxed back to the PCHS AlP specialist to indicate the batch is
        authorized to move forward with an official drawdown request.
   2. 	 The PCHS AlP specialist prepares the official drawdown letter and faxes the letter
        along with the cash forecast log to the POC finance office. The cash forecast log
        provides PCHS and POC with information on the current cash on hand balance in
        the operating bank account. If there is a cash balance these funds are used to
        decrease the federal funds drawdown request required to cover the approved AlP
        batch expenses. If there are any discrepancies in the amount on the drawdown
        letter POC contacts the PCHS AlP specialist for further clarification and
        correction if necessary. Once POC verifies that the drawdown letter is
        appropriately stated to cover only HS expenses then POC initiates the funds
        request with Payment Management Systems (PMS) for the authorized amount.



                                       Page 1 of5
                                                                                  Page 3 of 6

                                                       Report Number: A-04-09-07005


   3. 	 Once the drawdown request has been processed by PMS, POC faxes a copy of the
        confirmation to the HS AJP specialist to be maintained with the AJP records
        relative to the approved batch. Funds are transferred from the POC financial
        institution to the HS fmancial institution on the appropriate date and the checks
        are issued for the approved expenses.
   4. 	 Once all checks have been issued PCHS emails a copy of the check register
        relevant to the approved AJP batch to the POC fmance office which is reviewed
        and compared to the original AlP batch report provided at the onset of the process
        to ensure that both reports are in agreement.

Direct Versus Indirect Costs

POC concurs with the findings as they relate to direct and indirect cost allocations. It
should be noted that cost allocation plans for the FYs 2007, 2008, and 2009 were
developed by PCHS senior fiscal staff who were no longer employed with the agency at
the time of this review and the methodology by which costs were being allocated was
obtained through the use of those individuals' plans as had been the on-going practice. In
reviewing the history of PCHS external audit examinations by various external regulatory
entities, there was no indication that such practices were ever deemed non-compliant and
therefore, such practices continued.

However, as a result of information shared with PCHS during the OIG review and POC
and PCHS' current management staff receiving additional training related to various
regulations governing the Head Start Program, appropriate measures have been made to
revise the internal procedures related to cost allocation principles to ensure compliance
with federal regulations and thereby ensure that the Head Start program does not exceed
the 15% administrative limitation. It should also be noted that in FY 2007 PCHS' total
administrative expense percentage was 12.31 % and FY 2008 total administrative expense
percentage was 8.90% and it is very unlikely that revision of cost allocation plans in
those years would have resulted in administrative expenses exceeding the 15% limitation.

Corrective Action:

Information Technology

In 2010, the PCHS fiscal staff developed a cost allocation spreadsheet that uses the
number of employee systems supported by the LT. contract for each cost center as a base
to detennine the percentage of the LT. consulting contract services expense that should
be charged to each grant administered by PCHS and of that amount what percentage
should be coded to administrative expense versus program expense. The determination of
whether costs should be categorized as administrative or programmatic is based on the
employee's position, specific job functions, and cost center(s) receiving benefit from the
employee's efforts and not by the physical location to which the employee is assigned.
The cost allocation spreadsheet is reviewed and re-issued on an annual basis by PCHS
fiscal staff to ensure that cost allocation percentages are accurately reflected and
adjustments are made to account for any changes. This spreadsheet is provided to POC


                                       Page 2 of5
                                                                                    Page 4 of 6

                                                         Report Number: A-04-09-07005


prior to the beginning of the fiscal year and during our participation in quarterly fiscal
conferences with PCHS cost allocation plans are compared to PCHS financial reports to
ensure that expenses are being allocated in accordance with the plan.

Travel and Registration Expenses Associated with Training:

In 20 I 0, the PCHS fiscal staff developed a cost allocation spreadsheet that uses the same
methodology for staff payroll cost allocation submitted with the annual grant application
budget info11llation to determine the amount oftraining travel and registration expenses
to be charged to each grant administered by PCHS as administrative expense or program
expense. The cost allocation spreadsheet is reviewed and re-issued on an annual basis by
PCHS fiscal staff to ensure that the cost allocation percentages are accurately reflected
and adjustments are made to account for any changes. This spreadsheet is provided to
POC prior to the beginning of the fiscal year and during our participation in quarterly
fiscal conferences with PCHS cost allocation plans are compared to PCHS fmancial
reports to ensure that expenses are being allocated in accordance with the plan.

Other Development and Administrative Expenses

During FY 2007,2008, and 2009 all LT. related expenses were being charged directly to
the LT. cost center in accordance with the cost allocation plans referenced in the
concurrence statement. However, in September 2010 through an organizational
restructuring involving the reassignment ofjob responsibilities, the Program Grants and
Contracts Specialist was charged with the duties of issuing purchase orders, reviewing
supporting documentation, and coding expenses to appropriate cost centers for all agency
procurements. Therefore, currently all purchases relating to computer equipment are now
being charged to the cost centers utilizing the same cost allocation basis utilized to
allocate payroll and training expenses.

Personal Expenses

POC concurs with the finding as it relates to personal expenses. In order to correct this
finding POC will direct PCHS to revise its current policies and procedures to reflect that
all personal use of agency vehicles are unallowable under federal regulations 2 CFR §
230, App B, 19 and 2 CFR § 230, App B, 8.h. and will not be charged to the federal grant
award. The policies and procedures must ensure that all agency vehicle travel will be
documented (via mileage logs) to substantiate personal from business use, funds to cover
the personal use expense of vehicles will not be included in the PMS draw down requests,
and the federal IRS mileage reimbursement rate shall be used in calculating the cost of
the personal use of vehicles to be excluded from HHS grant expenses and paid from non­
federal resources. The policies and procedures will be due to POC for review and
approval within 30 days.




                                        Page 3 of 5
                                                                                    Page 5 of 6

                                                         Report Number: A-04-09-07005



 Conflicts ofInterest and Family Favoritism:

 We acknowledge and agree that as the grantee for the Head Start program we have
 monitoring and oversight responsibilities as they relate to the Head Start grant and
 program. We do not, however, have any such responsibilities relating to other grants
 PCHS receives, which do not corne through us, such as the HHS Healthy Marriages
 Grant that comes directly from HHS to PCHS, and which PCHS utilizes its Friend of
 Families Foundation to operate and oversee.

 Only the conflict of interest fInding relating to the PCHS board treasurer constitutes
 monitoring and oversight responsibility for POCo The treasurer no longer served as a
 consultant for the Friend of Families FOlmdation effective May 2009. As stated in the
 "insufficient grantee monitoring" response, POC and PCHS management staff will
 review the conflict of interest defInition and get training to better understand what
 constitutes conflict of interest to ensure that we do not enter into practices which
 constitute such.

 The Conflict of Interest fmding relative to the Executive Director and her daughter, the
 Conflict of Interest fInding relative to Region IV and the Florida Head Start Association,
 and the Family Favoritism finding you cite in your report are not related to our Head Start
 program, but rather to the Healthy Marriages Grant and Friend of Families Foundation
 operations, therefore POC contends that we have no monitoring or oversight
 responsibilities relative to those issues.




 Insufficient Grantee Monitoring

 We acknowledge and agree that as the grantee for the Head Start program we have 

 monitoring and oversight responsibilities as they relate to the Head Start grant and 

 program. We do not, however, have any such responsibilities relating to other grants 



                                           Page 4 of5
OIG Note: We deleted a section ofPOC's comments because they pertained to material included
in the draft report but not included in this final report.
                                                                                    Page 6 of 6

                                                        Report Number: A-04-09-07005


PCHS receives, which do not come through us, such as the I-ll-IS Healthy Marriages
Grant that comes directly from I-ll-IS to PCHS, and which PCHS utilizes its Friend of
Families Foundation to operate and oversee.

Two of the Conflict of Interest findings and the Family Favoritism fmding you cite in
your report are not related to our Head start program, but rather to the Healthy Marriages
Grant and Friend of Families Foundation operations, therefore we contend that we have
no monitoring or oversight responsibilities relative to those issues. POC and PCHS
management staff will review the conflict of interest definition and get training to better
understand what constitutes conflict of interest to ensure that we do not enter into
practices which constitute such.

As a result of the OIG review POC has strengthened its monitoring and oversight of the
Head Start Program. POC will expand its PCHS quarterly financial review meetings to
include review of contracts and certain other voucher batch source documentation, i.e.
credit card statement detail, quarterly out of town travel detail, and personal use of
agency vehicle recordkeeping, expense, and reimbursement detail.

Additionally, for the 2010 annual PCHS monitoring POC engaged the services of a third
party individual who is a certified public accountant familiar with Head Start federal
regulations, performance standards, and protocols to assist in this process.

It should be noted that POC has been the grantee for the Head Start Program since 1968.
No monitoring program review teams from I-ll-IS or any independent auditor reports ever
indicated that our monitoring of Head Start was insufficient. We have in fact been
awarded Head Start and Recovery Act funding for 2010 and 2011 and programs have
performed effectively and efficiently in accordance with Federal regulations.

It should also be noted that we have received and continue to receive funding from
several other sources to operate other programs. For more than 40 years we have
successfully utilized the funding in accordance with governing rules and regulations and
have received no indication that we have not properly accounted for funds or that we
have not performed in anything other than an effective and efficient manner.




                                        Page 5 of5
